                           NCUA 2006
                  FINANCIAL STATEMENT AUDITS
                              FOR
                               OPERATING FUND
                            SHARE INSURANCE FUND
                         CENTRAL LIQUIDITY FACILITY
                 COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                  For the year ended December 31, 2006

       Audited Financial Statements              Audit Report Number

           NCUA Operating Fund                        OIG-07-02
 National Credit Union Share Insurance Fund           OIG-07-03
          Central Liquidity Facility                  OIG-07-04
Community Development Revolving Loan Fund             OIG-07-05



                               March 12, 2007



                           _______________________
                              William A. DeSarno
                               Inspector General
                          EXECUTIVE SUMMARY
PURPOSE AND SCOPE             The National Credit Union Administration (NCUA)
                              Office of Inspector General contracted with the
independent public accounting firm of Deloitte & Touche to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, and the Community Development Revolving Loan Fund,
for the year ended December 31, 2006.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States.

FINANCIAL STATEMENT CONTRACT             The Inspector General contracted with
                                         Deloitte & Touche in August 2006 to
perform the financial statement audits mentioned above. The contract was for
2006, with options for 2007 and 2008. The Inspector General was the
contracting officer for this contract.

AUDIT RESULTS        Deloitte & Touche expressed unqualified opinions, stating
                     that the financial statements present fairly, in all material
respects, the financial position of the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Fund, at December 31, 2006, and the results of operations for
the year then ended.

Although Deloitte & Touche did not express an overall opinion of the Funds’
compliance with laws and regulations, their testing of compliance did not disclose
any significant deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses
in their review of the Funds’ internal control structures pertinent to financial
reporting. However, during the performance of the audit, we developed
recommendations related to internal control over financial reporting and certain
observations and recommendations on other accounting, administrative, and
operating matters. The observations and recommendations section of this report
is restricted to official use only.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the
Years Ended December 31, 2006 and 2005,
and Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REPORT                                       1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2006 AND 2005:

 Balance Sheets                                                    2

 Statements of Revenues, Expenses, and Changes in Fund Balance     3

 Statements of Cash Flows                                          4

 Notes to Financial Statements                                   5–10

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
  BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                                  11–12
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA

                                                                                           Tel: 703-251-1000
                                                                                           Fax: 703-251-3400
                                                                                           www.us.deloitte.com
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of National Credit Union Administration Operating
Fund (the “Fund”) as of December 31, 2006 and 2005, and the related statements of revenues, expenses,
and changes in fund balance, and cash flows for the years then ended. These financial statements are the
responsibility of the Fund’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
National Credit Union Administration Operating Fund as of December 31, 2006 and 2005, and the results
of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 12,
2007, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and grant agreements, and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of our
audits.




February 12, 2007



                                                                                  Member of
                                                                                  Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2006 AND 2005
(Dollars in thousands)


                                                                           2006       2005
ASSETS

CASH AND CASH EQUIVALENTS                                                $ 25,394   $ 26,730

DUE FROM NATIONAL CREDIT UNION SHARE
 INSURANCE FUND (Note 4)                                                                133

EMPLOYEE ADVANCES                                                            902        835

OTHER ACCOUNTS RECEIVABLE (Note 5)                                           172        480

PREPAID EXPENSES AND OTHER ASSETS                                          1,683        681

FIXED ASSETS—Net of accumulated depreciation and amortization (Note 3)    35,309     35,199

TOTAL                                                                    $ 63,460   $ 64,058


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                        $ 3,817    $ 6,399
 Obligations under capital leases (Note 6)                                 2,138        328
 Accrued wages and benefits                                                2,571      6,391
 Accrued annual leave                                                      8,319      8,197
 Accrued employee travel                                                      11         20
 Due to National Credit Union Share Insurance Fund (Note 4)                   98
 Note payable to National Credit Union Share Insurance Fund (Note 4)      22,461     23,802

      Total liabilities                                                   39,415     45,137

FUND BALANCE (Note 11)                                                    24,045     18,921

TOTAL                                                                    $ 63,460   $ 64,058


See notes to financial statements.




                                                 -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(Dollars in thousands)


                                                        2006       2005

REVENUES:
 Operating fees                                       $ 63,577   $ 61,959
 Interest                                                2,203      1,332
 Other                                                     179        164

       Total revenues                                  65,959     63,455

EXPENSES (Note 4):
 Employee wages and benefits                           46,740     45,066
 Travel                                                 5,583      5,087
 Rent, communications, and utilities                    1,594      1,689
 Contracted services                                    2,900      2,784
 Other                                                  4,018      4,843

       Total expenses                                  60,835     59,469

EXCESS OF REVENUES OVER EXPENSES                        5,124      3,986

FUND BALANCE—Beginning of year                         18,921     14,935

FUND BALANCE—End of year                              $ 24,045   $ 18,921


See notes to financial statements.




                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(Dollars in thousands)


                                                                                   2006          2005

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                              $ 5,124       $ 3,986
 Adjustments to reconcile excess of revenues over expenses
  to cash provided by operating activities:
  Depreciation and amortization                                                     3,719         3,339
  Provision for loss on disposal of employee residences held for resale               261           108
  Loss on disposal of fixed assets                                                      1             2
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                               231            17
    Employee advances                                                                 (67)         (295)
    Other accounts receivable                                                         308          (342)
    Prepaid expenses                                                                 (237)          182
  (Decrease) increase in liabilities:
    Accounts payable                                                               (2,582)        2,226
    Accrued wages and benefits                                                     (3,820)        4,010
    Accrued annual leave                                                              122           431
    Accrued employee travel                                                            (9)           (1)

       Net cash provided by operating activities                                    3,051        13,663

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets                                                         (1,049)       (2,511)
 Purchases of employee residences held for sale                                    (1,839)         (988)
 Proceeds from sale of employee residences held for resale                            813           723

       Net cash used in investing activities                                       (2,075)       (2,776)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of note payable                                                        (1,341)       (1,341)
 Principal payments under capital lease obligations                                  (971)       (1,043)

       Net cash used in financing activities                                       (2,312)       (2,384)

NET (DECREASE) INCREASE IN CASH AND CASH EQUIVALENTS                               (1,336)        8,503

CASH AND CASH EQUIVALENTS—Beginning of year                                        26,730        18,227

CASH AND CASH EQUIVALENTS—End of year                                          $ 25,394      $ 26,730

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES—Acquisition of equipment under
 capital lease                                                                 $ 2,781       $      35

CASH PAYMENTS FOR INTEREST                                                     $     889     $     626


See notes to financial statements.




                                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal
     Credit Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury
     under the management of the National Credit Union Administration (“NCUA”) Board for the purpose of
     providing administration and service to the Federal Credit Union System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents—The Federal Credit Union Act permits the Fund to make investments in United
     States Government securities or securities guaranteed as to both principal and interest by the United
     States Government. Cash equivalents are highly liquid investments with original maturities of three
     months or less. All investments in 2006 and 2005 were cash equivalents and are stated at cost, which
     approximates fair value.

     Depreciation and Amortization—Building, furniture, equipment and leasehold improvements are
     recorded at cost. Capital leases are recorded at the present value of the future minimum lease payments.
     Depreciation and amortization are computed by the straight-line method over the estimated useful lives
     of the building, furniture, and equipment, and the shorter of the estimated useful life or lease term for
     leasehold improvements and capital leases. Estimated useful lives are forty years for the building and
     three to ten years for the furniture, equipment, and leasehold improvements.

     Operating Fees—The Fund assesses each federally chartered credit union an annual fee based on the
     credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
     providing administration and service to the Federal Credit Union System. The Fund recognizes this
     operating fee revenue ratably over the year.

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c) (1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

     Cash and cash equivalents, receivables from National Credit Union Share Insurance Fund (“NCUSIF”)
     and National Credit Union Administration Central Liquidity Facility (“NCUA CLF”), employee
     advances, other accounts receivable, accounts and notes payable to NCUSIF, and other accounts payable
     are recorded at book values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.


                                                     -5-
3.   FIXED ASSETS

     Fixed assets are comprised of the following at December 31, 2006 and 2005 (in thousands):

                                                                                   2006            2005

       Office building and land                                                 $ 42,651      $ 42,626
       Furniture and equipment                                                    11,900        13,338
       Equipment under capital leases                                              2,983         3,243
       Assets under construction                                                     139

               Total                                                              57,673          59,207

       Less accumulated depreciation and amortization                            (22,364)        (24,008)

       Fixed assets—net                                                         $ 35,309      $ 35,199

     Accumulated amortization balances for equipment under capital leases as of December 31, 2006 and
     2005, were (in thousands) $964 and $2,909, respectively.

4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board and derived from a
     study of actual usage. The allocation factor was 57% to NCUSIF for both 2006 and 2005. The cost of
     the services allocated to NCUSIF, which totaled approximately $80,642,000 and $78,832,000 for 2006
     and 2005, respectively, is reflected as a reduction of the corresponding expenses in the accompanying
     financial statements.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
     note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a building in
     1993. Interest costs incurred were approximately $873,000 and $626,000 for 2006 and 2005,
     respectively. The note payable balances at December 31, 2006 and 2005, were approximately
     $22,461,000 and $23,802,000, respectively.

     The above note requires principal repayments at December 31, 2006 as follows (in thousands):

       Years Ending December 31:                                                                  Secured
                                                                                                 Term Note

       2007                                                                                      $ 1,341
       2008                                                                                        1,341
       2009                                                                                        1,341
       2010                                                                                        1,341
       2011                                                                                        1,341
       Thereafter                                                                                 15,756

       Total                                                                                     $ 22,461

     The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2006 and 2005 were 3.79% and 2.57%, respectively. The interest rates at
     December 31, 2006 and 2005, were 4.29% and 3.19%, respectively.


                                                   -6-
5.   TRANSACTIONS WITH NCUA CLF

     Certain administrative services are provided by the Fund to NCUA CLF. The Fund charges NCUA CLF
     for these services based upon rates approved by the NCUA Board. The costs of the services provided to
     NCUA CLF were $253,000 and $220,000 for 2006 and 2005, respectively, and are reflected as a
     reduction of the corresponding expenses in the accompanying financial statements.

     Other accounts receivable include approximately $95,000 and $91,000 of amounts due from
     NCUA CLF as of December 31, 2006 and 2005, respectively.

6.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into a number of lease agreements with
     vendors for the rental of office space, as well as the lease of office equipment that includes laptops,
     printers, monitors, and copiers.

     Operating Leases—The Fund leases office space under lease agreements that expire through 2014.
     Office rental charges amounted to approximately $741,600 and $793,600 of which approximately
     $422,700 and $452,300 was reimbursed by NCUSIF for 2006 and 2005, respectively. In addition, the
     Fund leases office equipment under operating leases with lease terms of less than one year.

     Capital Leases—The Fund leases equipment under lease agreements that expire through 2009.

     The future minimum lease payments as of December 31, 2006, are as follows (in thousands):

       Years Ending December 31:                                                        Operating     Capital
                                                                                         Leases       Leases

       2007                                                                             $ 663        $ 960
       2008                                                                               561          954
       2009                                                                               575          240
       2010                                                                               297
       2011                                                                               303
       Thereafter                                                                         704

       Total                                                                            $ 3,103       2,154

       Less imputed interest                                                                             (16)

       Present value of minimum lease payments                                                       $ 2,138

     Based on the allocation factor approved by the NCUA Board for 2007, NCUSIF will reimburse the Fund
     for approximately 53.3% of the future operating lease payments.

7.   RETIREMENT PLANS

     The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
     includes the Federal Employees’ Retirement System (“FERS”). Both plans are defined benefit
     retirement plans covering all of the employees of the Fund. FERS is comprised of a Social Security
     Benefits Plan, a Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a
     percentage of employees’ gross pay. Under the Savings Plan, employees can also elect additional



                                                      -7-
     contributions between 1% and 15% of their gross pay, up to $15,000 in 2006, and the Fund will match
     up to 5% of the employees’ gross pay. In 2006 and 2005, the Fund’s contributions to the plans were
     approximately $11,630,000 and $11,060,000, respectively, of which approximately $6,629,000 and
     $6,304,000, respectively, were reimbursed by NCUSIF.

     The Fund does not account for the assets of the above plans and does not have actuarial data with
     respect to accumulated plan benefits or the unfunded liability relative to eligible employees. These
     amounts are reported by the U.S. Office of Personnel Management for the Civil Service Retirement and
     Disability Fund and are not allocated to individual employers.

8.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
     thousands):

                                                         December 31, 2006             December 31, 2005
                                                        Carrying      Fair            Carrying      Fair
                                                        Amount       Value            Amount       Value

       Cash and cash equivalents                       $ 25,394      $ 25,394        $ 26,730      $ 26,730
       Due from NCUSIF                                                                    133           133
       Due to NCUSIF                                         98            98
       Employee advances                                    902           902             835           835
       Other accounts receivable                            172           172             480           480
       Accounts payable                                   3,817         3,817           6,399         6,399
       Obligation under capital lease                     2,138         2,138             328           328
       Note payable to NCUSIF                            22,461        22,461          23,802        23,802

9.   CONTINGENCIES

     The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
     opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
     material to the Fund’s financial position.

10. HURRICANE RELATED MATTERS

     As part of its regulatory relief and forbearance efforts for credit unions and their members impacted by
     hurricanes, the NCUA Board allowed credit unions that are located in hurricane-affected areas to pay an
     operating fee that was based on assets that excluded hurricane-related Federal Emergency Management
     Agency and insurance payouts. This resulted in a reduction in operating fee collections in the amount of
     $167,000 during 2006.

     Once again in 2007, the NCUA Board will again allow credit unions that are still affected by the
     hurricanes to pay a reduced operating fee. In the opinion of management, this will not have a material
     impact on operating fee collections.

11. RETAINED EARNINGS APPROPRIATION

     In 2006, the NCUA Board established an appropriation of the Fund’s fund balance in an effort to more
     transparently disclose and communicate to stakeholders earnings that are needed for major projects that
     cannot be accrued or that do not warrant inclusion in the annual operating expense budget. The initial




                                                     -8-
   appropriation of $1,000,000 is for repairs and maintenance on NCUA’s Alexandria headquarters
   building.

12. COMMITMENTS

   NCUA shares a common plaza and parking garage with owners of real estate adjacent to their
   headquarters office building. In 2006, NCUA, along with the other owners, entered into contracts for the
   restoration and preservation of the Alexandria, Virginia King Street Station complex’s plaza and garage.
   The value of the contracts totals $3,465,624 with $721,028 for NCUA’s share. As of December 31,
   2006, the Fund has advanced $237,939 towards the project and has recorded $139,000 as construction in
   progress and the remainder as a prepaid expense. The Fund is expected to pay an additional $483,089
   for this work in 2007. The project is expected to be completed in 2007.

                                              ******




                                                  -9-
                                                                                          Deloitte & Touche LLP
                                                                                          Suite 800
                                                                                          1750 Tysons Boulevard
                                                                                          McLean, VA 22102-4219
                                                                                          USA

                                                                                          Tel: 703-251-1000
                                                                                          Fax: 703-251-3400
                                                                                          www.us.deloitte.com


INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Operating Fund
(the “Fund”), as of and for the year ended December 31, 2006, and have issued our report thereon dated
February 12, 2007. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting
In planning and performing our audit, we considered the Fund’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or a combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
presented or detected by the entity’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose described in
the first paragraph of this sect and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses as defined above.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grants agreements, noncompliance with which could have a direct and material effect on
the determination of financial statement amounts. However, providing an opinion on compliance with
                                                                                 Member of
                                                                                 Deloitte Touche Tohmatsu
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

We noted certain that we have reported to the management of the Fund in a separate letter dated
February 12, 2007.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Operating Fund and is not intended to be and should not be used by anyone other than these specified
parties.




February 12, 2007




                                                   - 11 -
National Credit Union
Share Insurance Fund
Financial Statements as of and for the
Years Ended December 31, 2006 and 2005,
and Independent Auditors’ Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                                     Page

INDEPENDENT AUDITORS’ REPORT                                           1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2006 AND 2005:

 Balance Sheets                                                        2

 Statements of Operations                                              3

 Statements of Fund Balance                                            4

 Statements of Cash Flows                                              5

 Notes to Financial Statements                                       6–13

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS         14–15
                                                                                          Deloitte & Touche LLP
                                                                                          Suite 800
                                                                                          1750 Tysons Boulevard
                                                                                          McLean, VA 22102-4219
                                                                                          USA

                                                                                          Tel: 703-251-1000
                                                                                          Fax: 703-251-3400
INDEPENDENT AUDITORS’ REPORT                                                              www.us.deloitte.com



To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund
(the “Fund”) as of December 31, 2006 and 2005, and the related statements of operations, fund balance,
and cash flows for the years then ended. These financial statements are the responsibility of the Fund’s
management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 2006 and 2005, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 12,
2007, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements, and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.




February 12, 2007



                                                                                 Member of
                                                                                 Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION SHARE INSURANCE FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2006 AND 2005
(Dollars in thousands)

ASSETS                                                                   2006            2005
INVESTMENTS (Note 6)                                               $ 5,257,216     $ 4,808,210
CASH AND CASH EQUIVALENTS                                              1,683,462       1,798,763
ACCRUED INTEREST RECEIVABLE                                              63,244          52,102
DUE FROM NATIONAL CREDIT UNION ADMINISTRATION
 OPERATING FUND (Note 8)                                                     98             -
ASSETS ACQUIRED IN ASSISTANCE TO INSURED CREDIT
 UNIONS                                                                  14,461          17,588
LOANS TO CREDIT UNIONS                                                   15,000             -
NOTE RECEIVABLE—National Credit Union Administration
 Operating Fund (Note 8)                                                 22,461          23,802
CONTRIBUTIONS RECEIVABLE FROM INSURED CREDIT
 UNIONS                                                                      47           1,740
FIXED ASSETS—Net of accumulated depreciation and
 amortization (note 3)                                                      762             104
TOTAL                                                              $ 7,056,751     $ 6,702,309

LIABILITIES AND FUND BALANCE

LIABILITIES:
 Estimated losses from supervised credit unions (Note 4)           $     70,229    $     72,976
 Amounts due to insured shareholders of liquidated credit unions          7,291           8,257
 Due to National Credit Union Administration
  Operating Fund (Note 8)                                                   -               133
 Cash assistance liability                                                  -             2,357
 Accounts payable                                                           109              35
 Obligations under capital leases (Note 9)                                  806             107
       Total liabilities                                                 78,435          83,865
FUND BALANCE:
 Insured credit unions’ accumulated contributions                      5,306,286       5,128,031
 Insurance fund balance                                                1,672,030       1,490,413
       Total fund balance                                              6,978,316       6,618,444
TOTAL                                                              $ 7,056,751     $ 6,702,309

See notes to financial statements.




                                                    -2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(Dollars in thousands)


                                                    2006        2005

REVENUES:
 Interest                                         $ 264,895   $ 175,017
 Other                                                1,326         645

       Total revenues                              266,221     175,662

EXPENSES (Note 8)—
 Administrative expenses:
  Employee wages and benefits                       61,958      59,739
  Travel                                             7,401       6,743
  Rent, communications, and utilities                2,113       2,239
  Contracted services                                3,844       3,691
  Provision for insurance losses (Note 4)            2,548      20,940
  Other                                              6,740       8,061

       Total expenses                               84,604     101,413

EXCESS OF REVENUES OVER EXPENSES                  $ 181,617   $ 74,249


See notes to financial statements.




                                            -3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(Dollars in thousands)


                                                     Insured
                                                  Credit Unions’    Insurance
                                                  Accumulated         Fund
                                                  Contributions      Balance

BALANCE—January 1, 2005                           $ 4,943,144      $ 1,416,164

 Contributions from insured credit unions            184,887              -

 Excess of revenues over expenses                        -             74,249

BALANCE—December 31, 2005                           5,128,031       1,490,413

 Contributions from insured credit unions            178,255              -

 Excess of revenues over expenses                        -            181,617

BALANCE—December 31, 2006                         $ 5,306,286      $ 1,672,030


See notes to financial statements.




                                            -4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(Dollars in thousands)


                                                                                            2006              2005

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                     $     181,617     $      74,249
 Adjustments to reconcile excess of revenues over expenses to cash provided by
  operating activities:
  Depreciation and amortization                                                                  415              414
  Amortization of premiums and discounts on investments—net                                    1,806           49,022
  (Recoveries) reserves relating to losses from supervised credit unions—net                  (2,747)           5,850
 Decrease (increase) in assets:
  Accrued interest receivable                                                               (11,142)          (13,856)
  Assets acquired in assistance to insured credit unions—net                                  3,127              (961)
  Contributions receivable from insured credit unions                                           -                (182)
 Increase (decrease) in liabilities:
  Amounts due to insured shareholders of liquidated credit unions                               (966)           (3,344)
  Amounts due to National Credit Union Administration Operating Fund                            (231)              (17)
  Cash assistance liability                                                                   (2,357)            1,279
  Accounts payable                                                                                74               (37)

       Net cash provided by operating activities                                            169,596           112,417

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loans to credit unions                                                                      (15,000)              -
 Purchases of investments                                                                 (2,550,812)       (2,271,641)
 Proceeds from maturities of investments                                                   2,100,000         1,900,000
 Collections on note receivable—National Credit Union Administration Operating Fund            1,341             1,341

       Net cash used in investing activities                                               (464,471)         (370,300)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                                   179,948           184,709
 Principal payments under capital lease obligation                                             (374)             (415)

       Net cash provided by financing activities                                            179,574           184,472

NET DECREASE IN CASH AND CASH EQUIVALENTS                                                  (115,301)          (73,411)

CASH AND CASH EQUIVALENTS—Beginning of year                                               1,798,763         1,872,174

CASH AND CASH EQUIVALENTS—End of year                                                 $ 1,683,462       $ 1,798,763

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES—Acquisition of
 equipment under capital lease                                                        $       1,073     $         -

CASH PAYMENTS FOR INTEREST                                                            $            5    $         -


See notes to financial statements.




                                                              -5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (the “Fund” or “NCUSIF”) was created by the Public
     Law 91-468 (Title II of the Federal Credit Union Act), which was amended in 1984 by Public
     Law 98-369. The Fund was established as a revolving fund in the United States Treasury under the
     management of the National Credit Union Administration (“NCUA”) Board for the purpose of insuring
     member share deposits in all federal credit unions and in qualifying state credit unions that request
     insurance. The maximum amount of insurance is $100,000 per shareholder account and $250,000 on
     certain retirement accounts.

     NCUA exercises direct supervisory authority over federal credit unions and coordinates required
     supervisory involvement with the state chartering authority for state-chartered credit unions insured by
     the Fund. Insured credit unions are required to report certain financial and statistical information to
     NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
     periodic examination by NCUA. Information derived through the supervisory and examination process
     provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
     require assistance from the Fund.

     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their
     operations if these difficulties are considered by the Fund to be temporary or correctable. This special
     assistance may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or
     cash assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a
     merger partner may be sought. If the assistance or merger alternatives are not practical, the credit union
     is liquidated.

     The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
     union is permitted to cease making additions to its regular reserve and, in more severe cases, to
     commence charging operating losses against its regular reserve. When all reserves have been depleted
     by the credit union, the Fund may provide a reserve guarantee account in the amount of the reserve
     deficit. In addition, the Fund may provide cash assistance in the form of share deposits and NCUSIF
     subordinated notes, or may purchase assets from the credit union.

     Mergers of financially troubled credit unions with stronger credit unions may also require Fund
     assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
     Fund, and/or guarantees of the values of certain assets (primarily loans).

     When a credit union is no longer able to continue operating and the merger and assistance alternatives
     are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
     up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
     guaranteed to third-party purchasers by the Fund.




                                                      -6-
2.   SIGNIFICANT ACCOUNTING POLICIES

     Investments—Title II of the Federal Credit Union Act limits the Fund’s investments to United States
     Government securities or securities guaranteed as to both principal and interest by the United States
     Government. All investments are classified as held-to-maturity under Statement of Financial Standards
     No. 115, Accounting for Certain Investments in Debt and Equity Securities. Accordingly, the Fund
     records investments at amortized cost. Amortized cost is the face value of the securities plus the
     unamortized premium or less the unamortized discount.

     Cash and Cash Equivalents—The Federal Credit Union Act permits the Fund to make investments in
     United States Government securities or securities guaranteed as to both principal and interest by the
     United States Government. Cash equivalents are highly liquid investments with original maturities of
     three months or less.

     Assets Acquired in Assistance to Insured Credit Unions—The Fund acquires the assets of liquidating
     credit unions pending their ultimate disposition. To assist in the merger of credit unions, the Fund may
     purchase certain credit union assets. In addition, the Fund may provide cash assistance by acquiring non-
     performing assets of a credit union experiencing financial difficulty. These acquired assets are
     maintained by the Asset Management and Assistance Center in Austin, Texas, and are recorded by the
     Fund at their estimated net realizable value.

     Advances to Insured Credit Unions—The Fund provides cash assistance in the form of interest and
     noninterest-bearing NCUSIF (“National Credit Union Share Insurance Fund”) subordinated notes
     (carried at face value), share deposits, and loans to certain credit unions to assist them in continuing their
     operations.

     Depreciation and Amortization—Furniture and equipment are recorded at cost. Equipment acquired
     under capital lease agreements is recorded at the present value of the future minimum lease payments.
     Depreciation and amortization are computed by the straight-line method over the estimated useful lives
     of the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
     Estimated useful lives are three years for the furniture, equipment and capital leases.

     Guarantees—Guarantees are recorded in accordance with FASB Interpretation No. 45, Guarantor’s
     Accounting and Disclosure Requirements for Guarantees, Including Indirect Guarantees of
     Indebtedness of Others, which requires the Fund to recognize, at the inception of a guarantee, a liability
     for the fair value of obligation undertaken in issuing the guarantee.

     Premium Revenue—The Fund may assess each insured credit union a premium charge for insurance in
     an amount stated as a percentage of insured shares outstanding as of December 31 of the preceding
     insurance year if the Fund’s equity ratio is less than 1.3% (Note 5).

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c)(1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

     Investments—The fair value for investments is the quoted market value.




                                                       -7-
     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate fair
     values.

     Loans to Credit Unions—It is not practicable to estimate the fair value of these assets as there is no
     secondary market. All outstanding loans are secured by a perfected lien against the assets of the credit
     union and are fully secured

     Other—Accrued interest receivable, due from/to NCUA Operating Fund, note receivable from NCUA
     Operating Fund, contributions receivable from insured credit unions, due to insured shareholders of
     liquidated credit unions, accounts payable, and obligations under capital leases are recorded at book
     values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates. The more
     significant estimates include the estimated losses from supervised credit unions and the allowance for
     loss on assets acquired in assistance to insured credit unions.

3.   FIXED ASSETS

     At December 31, 2006 and 2005, fixed assets are comprised of the following (in thousands):
                                                                                          2006           2005

       Furniture and equipment                                                         $ 501        $     500
       Equipment under capital leases                                                   1,073           1,237

              Total                                                                      1,574          1,737

       Less—accumulated depreciation and amortization                                     (812)         (1,633)

       Total fixed assets—net                                                          $ 762        $     104

     Accumulated amortization balances for equipment under capital leases as of December 31, 2006 and
     2005, totaled (in thousands) $311 and $1,133, respectively.

4.   PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through NCUA’s supervisory and
     examination process. The estimated losses from these supervised credit unions are determined by
     management on a specified case basis. Management also evaluates overall economic trends and monitors
     potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies, and
     delinquencies. NCUA applies a rating system to assess a credit union’s financial condition and
     operations in the areas of Capital Adequacy, Asset Quality, Management, Earnings, and Asset/Liability
     Management (“CAMEL”). The CAMEL Rating System is a tool to measure risk and allocate resources
     for supervisory purposes. NCUA periodically reviews the CAMEL Rating System to respond to
     continuing economic and regulatory changes in the credit union industry. For non-specified case reserve
     requirements, risk profile categories are established based on the CAMEL ratings of problem credit
     unions, and probable failure and loss rates are applied based on historical data. The anticipated losses are
     net of estimated recoveries from the disposition of the assets of failed credit unions.



                                                      -8-
     Total estimated insurance in force as of December 31, 2006 and December 31, 2005, is $535.3 billion
     and $516.6 billion, respectively, which includes natural person and corporate credit unions. The total net
     reserves for identified and anticipated losses from supervised credit unions’ failures are $70 million and
     $73 million at December 31, 2006 and 2005, respectively.

     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
     loans) to third-party purchasers or to credit unions to facilitate mergers. The Fund would be obligated
     upon non-performance. No such guarantees were outstanding at December 31, 2006 and 2005. The
     estimated losses from asset and merger guarantees are determined by management on a case-by-case
     evaluation.

     In addition, the Fund may grant a guaranteed line-of-credit to a third party credit provider, such as a
     corporate credit union or bank, if a credit union has a current or immediate liquidity concern and the
     credit provider has refused to extend credit without a guarantee. The Fund would be obligated if the
     credit union failed to perform. Total line-of-credit guarantees of credit unions at December 31, 2006 and
     2005, are approximately $20 million and $2.2 million, respectively. The total balances outstanding
     under these line-of-credit guarantees at December 31, 2006 and 2005 are approximately $0 and
     $2.1 million, respectively. The carrying amount of the liability as of December 31, 2006, for the
     outstanding NCUSIF guarantee is $422,876. All guarantees outstanding at December 31, 2006 expire on
     March 31, 2007.

     From time to time, the Fund provides indemnifications in merger assistance agreements to acquiring
     credit unions. Such indemnifications make the Fund contingently liable based on the outcome of legal
     actions. No such indemnification contingencies existed at December 31, 2006.

     The activity in the reserves for estimated losses from supervised credit unions for the periods ended
     December 31, 2006 and 2005, was as follows (in thousands):
                                                                                      2006           2005

       Beginning Balance                                                           $ 72,976      $ 67,126

         Insurance losses                                                            (10,833)      (24,177)
         Recoveries                                                                    5,538         9,087
         Provision for insurance losses                                                2,548        20,940

       Ending Balance                                                              $ 70,229      $ 72,976

5.   FUND CAPITALIZATION

     The Credit Union Membership Access Act of 1998 (“CUMAA”) mandated changes to the Fund’s
     capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
     with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
     each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
     determined by the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in
     the case of an insured credit union with total assets of not more than $50 million; and (ii) semiannually,
     in the case of an insured credit union with total assets of $50 million or more. The annual and
     semiannual adjustments are based on member share deposits outstanding as of December 31 of the
     preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to the
     insured credit union in the event that its insurance coverage is terminated, or is obtained from another
     source, or the operations of the Fund are transferred from the NCUA Board.



                                                     -9-
     The CUMAA mandates certain premium charges from insured credit unions and distributions from the
     Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
     equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro rata distributions
     to insured credit unions after each calendar year are required if, as of year-end:

     (i)   Any loans to the Fund from the Federal Government, and any interest on those loans, have been
           repaid;

     (ii) The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
          ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%);
          and

     (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.

     The NCUA Board set the normal operating level for 2007 and 2006 at 1.30%. The calculated equity
     ratios at December 31, 2006 and December 31, 2005, were 1.304% and 1.28%, respectively.

     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which are
     based upon year-end reports of insured shares. Accordingly, dividends associated with insured shares at
     year-end are declared and paid in the subsequent year.

     The NCUA Board will convene early in 2007 to declare dividends payable on insured shares as of
     December 31, 2006, because the equity ratio of 1.304% is above the normal operating level of 1.30%.
     Total insured shares as of December 31, 2006 and December 31, 2005, were estimated to be $535.3
     billion and $516.6 billion, respectively.

6.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
     and liquidation activities is invested in U.S. Treasury securities.




                                                     - 10 -
     At December 31, 2006 and 2005, investments consist of the following (in thousands):
                                                                             2006
                                               Yield to                         Gross         Gross        Estimated
                                               Maturity          Amortized    Unrealized    Unrealized      Market
                                              at Market            Cost         Gains        Losses          Value
                                          (At Purchase Date)
       U.S. Treasury Securities:
        Maturities up to one year                   2.96 %     $ 1,703,200    $ -          $ (13,138)    $ 1,690,062
        Maturities after one year
         through five years                         4.48        3,554,016        -           (11,891)      3,542,125

       Total                                                   $ 5,257,216    $ -          $ (25,029)    $ 5,232,187

                                                                             2005
                                                Yield to                        Gross         Gross        Estimated
                                                Maturity         Amortized    Unrealized    Unrealized      Market
                                               at Market           Cost         Gains        Losses          Value
                                          (At Purchase Date)
       U.S. Treasury Securities:
        Maturities up to one year                   2.38 %     $ 2,308,827    $ -          $ (21,265)    $ 2,287,562
        Maturities after one year
         through five years                         3.26        2,499,383        -           (35,367)      2,464,016

       Total                                                   $ 4,808,210    $ -          $ (56,632)    $ 4,751,578


     Total investment purchases during 2006 and 2005 were approximately $2.6 billion and $2.3 billion,
     respectively. Investment maturities during 2006 and 2005 were approximately $2.1 billion and
     $1.9 billion, respectively. The Fund has the capability and management has the intention to hold all
     investments held at December 31, 2006 and 2005 to maturity. There were no investment sales during
     2006 and 2005.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
     States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The NCUA Central
     Liquidity Facility (“CLF”) is authorized to make advances to the Fund under terms and conditions
     established by the NCUA Board. No borrowings were obtained from these sources during 2006 and
     2005.

8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
     NCUA Board and derived from a study of actual usage conducted by the management of these Funds.
     The allocation factor was 57% to the Fund for both 2006 and 2005. The cost of services provided by the
     NCUA Operating Fund was approximately $80,642,000 and $78,832,000 for 2006 and 2005,
     respectively, and includes pension contributions of approximately $6,629,000 and $6,304,000 to the
     Civil Service Retirement System and Federal Employees Retirement System defined benefit retirement
     plans for 2006 and 2005, respectively.




                                                      - 11 -
     In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
     term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund as
     needed to fund the costs of constructing a building. Interest income was approximately $873,000 and
     $626,000 for 2006 and 2005, respectively. The note receivable balances at December 31, 2006 and 2005
     were approximately $22,461,000 and $23,802,000, respectively.

     The above note matures as follows (in thousands):

       Years Ending                                                                               Secured
       December 31                                                                               Term Note

       2007                                                                                      $ 1,341
       2008                                                                                        1,341
       2009                                                                                        1,341
       2010                                                                                        1,341
       2011                                                                                        1,341
       Thereafter                                                                                 15,756

       Total                                                                                     $ 22,461

     The variable rate on the term note is equal to the Fund’s prior-month yield on investments. The average
     interest rates during 2006 and 2005 were approximately 3.79% and 2.57%, respectively. At
     December 31, 2006 and 2005, the rates were 4.29% and 3.19%, respectively.

     The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
     that expire through 2014. Based on the allocation factor determined by the NCUA’s Board, the Fund
     reimbursed the NCUA Operating Fund approximately 57% of the total lease payments. The cost of
     services provided by the NCUA Operating Fund includes rental charges of approximately $422,700 and
     $452,300 for December 31, 2006 and 2005, respectively.

     Based on the allocation factor approved by the NCUA Board for 2007, NCUSIF will reimburse the Fund
     for approximately 53.3% of the future operating lease payments. The Fund’s allocation of the NCUA
     Operating Fund’s total future minimum lease payments on operating leases as of December 31, 2006, is
     expected to be as follows (in thousands):

       Years Ending
       December 31

       2007                                                                                       $ 367
       2008                                                                                         303
       2009                                                                                         311
       2010                                                                                         160
       2011                                                                                         164
       Thereafter                                                                                   380

       Total                                                                                      $ 1,685

9.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into lease agreements with vendors for the
     lease of equipment that includes computers, laptops, and printers. The Fund leases computer equipment
     under capital lease agreements that expire through 2009.


                                                   - 12 -
   A schedule of future minimum lease payments as of December 31, 2006, is as follows (in thousands):

     2007                                                                                            $ 360
     2008                                                                                              360
     2009                                                                                               90

     Total                                                                                            810

     Less imputed interest                                                                                 (4)

     Present value of minimum lease payments                                                         $ 806

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

   The carrying amount and the estimated fair value of the Fund’s financial instruments, at December 31,
   2006 and 2005, are as follows:

                                                       2006                                 2005
                                           Carrying             Fair           Carrying             Fair
                                           Amount              Value           Amount              Value

     Investments                        $ 5,257,216         $ 5,232,187     $ 4,808,210        $ 4,751,578
     Cash and cash equivalents            1,683,462           1,683,462       1,798,763          1,798,763
     Accrued interest receivable             63,244              63,244          52,102             52,102
     Loans to credit unions                  15,000              15,000
     Notes receivable—NCUA
      Operating Fund                         22,461             22,461           23,802            23,802
     Contributions receivable from
      insured credit unions                       47                47             1,740            1,740
     Amounts due to insured
      shareholders of liquidated
      credit unions                           7,291              7,291             8,257            8,257
     Due from (to) NCUA
      Operating Fund                              98                98              (133)            (133)
     Cash assistance liability                                                     2,357            2,357
     Accounts payable                           109                109                35               35
     Obligations under capital
      leases                                    806                806               107              107

11. CONCENTRATIONS

   There are no significant concentrations of member share deposits within any region of the United States.
   Concentrations of member shares do exist within the manufacturing, governmental, and educational
   industries.

12. CONTINGENCIES

   The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
   opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
   material to the Fund’s financial position.

                                                ******



                                                   - 13 -
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA

                                                                                           Tel: 703-251-1000
                                                                                           Fax: 703-251-3400
                                                                                           www.us.deloitte.com


INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Share Insurance Fund
(“the Fund”), as of and for the year ended December 31, 2006, and have issued our report thereon dated
February 12, 2007. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting
In planning and performing our audit, we considered the Fund’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
presented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
                                                                                  Member of
                                                                                  Deloitte Touche Tohmatsu
provisions was not an objective of our audit and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.

We noted certain matters that we reported to management of the Fund in a separate letter dated
February 12, 2007.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Share Insurance
Fund and is not intended to be and should not be used by anyone other than these specified parties.




February 12, 2007




                                                 - 15 -
National Credit Union
Administration
Central Liquidity Facility
Financial Statements as of and for the
Years Ended December 31, 2006 and 2005,
and Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                                       Page

INDEPENDENT AUDITORS’ REPORT                                             1

FINANCIAL STATEMENTS AS OF AND FOR THE
  YEARS ENDED DECEMBER 31, 2006 AND 2005:

 Balance Sheets                                                          2

 Statements of Operations                                                3

 Statements of Members’ Equity                                           4

 Statements of Cash Flows                                                5

 Notes to Financial Statements                                          6–9

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS           10–11
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA

                                                                                           Tel: 703-251-1000
                                                                                           Fax: 703-251-3400
INDEPENDENT AUDITORS’ REPORT                                                               www.us.deloitte.com


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (“CLF”) as of December 31, 2006 and 2005, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the
responsibility of CLF’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CLF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Central Liquidity Facility as of December 31, 2006 and 2005,
and the results of its operations and its cash flows for the years then ended in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 12,
2007, on our consideration of CLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and grant agreements and other matters.
The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audits.




February 12, 2007



                                                                                   Member of
                                                                                   Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
BALANCE SHEETS
AS OF DECEMBER 31, 2006 AND 2005
(In thousands)


                                                            2006            2005
ASSETS

ASSETS:
 Cash                                                 $         12    $         10
 Investments with U.S. Central Federal Credit
  Union (Notes 5, 8, and 9)                               1,549,678       1,470,390
 Accrued interest receivable                                 21,386          14,557

TOTAL                                                 $ 1,571,076     $ 1,484,957


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable and other liabilities               $        130    $        120
 Dividends payable (Note 7)                                 21,267          14,475
 Member deposits (Note 7)                                      622             509

       Total liabilities                                    22,019          15,104

MEMBERS’ EQUITY:
 Capital stock—required (Note 7)                          1,537,649       1,458,445
 Retained earnings                                           11,408          11,408

       Total members’ equity                              1,549,057       1,469,853

TOTAL                                                 $ 1,571,076     $ 1,484,957


See notes to financial statements.




                                                -2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(In thousands)


                                                          2006       2005

REVENUE :
 Investment income                                      $ 78,213   $ 46,985
 Interest—loans to members (Note 6)                           75        -

      Total revenue                                      78,288     46,985

EXPENSES (Note 10):
 Operating expenses:
  Group agent service fee                                   -            1
  Personnel services                                        141        135
  Other services                                              63        42
  Rent, communications, and utilities                          8         7
  Personnel benefits                                          33        34
  Supplies and materials                                       3         3
  Printing and reproduction                                    5         6

      Total operating expenses                              253        228

 Interest-Federal Financing Bank loans (Note 6)              75        -
 Interest-liquidity reserve                                  37            13

      Total expenses                                        365        241

EXCESS OF REVENUE OVER EXPENSES                         $ 77,923   $ 46,744


See notes to financial statements.




                                                  -3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF MEMBERS’ EQUITY
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(In thousands)


                                                   Capital     Retained
                                                   Stock       Earnings

BALANCE—January 1, 2005                          $ 1,345,345   $ 11,408

 Issuance of required capital stock                 113,554

 Redemption of required capital stock                  (454)

 Dividends                                                      (46,744)

 Excess of revenue over expenses                                 46,744

BALANCE—December 31, 2005                         1,458,445      11,408

 Issuance of required capital stock                  81,143

 Redemption of required capital stock                (1,939)

 Dividends                                                      (77,923)

 Excess of revenue over expenses                                 77,923

BALANCE—December 31, 2006                        $ 1,537,649   $ 11,408


See notes to financial statements.




                                        -4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005
(In thousands)


                                                                 2006           2005

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                            $ 77,923       $    46,744
 Adjustments to reconcile excess of revenue over expenses
  to net cash provided by operating activities:
  (Increase) in accrued interest receivable                      (6,829)         (8,024)
   Increase in accounts payable and other liabilities                10              12

       Net cash provided by operating activities                71,104          38,732

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments—net                                    (79,288)       (113,362)

       Net cash used in investing activities                    (79,288)       (113,362)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                     1,578            864
 Issuance of required capital stock                              81,143        113,554
 Dividends                                                      (71,131)       (38,747)
 Withdrawal of member deposits                                   (1,465)          (587)
 Redemption of required capital stock                            (1,939)          (454)

       Net cash provided by financing activities                 8,186          74,630

NET INCREASE IN CASH                                                  2

CASH—Beginning of year                                              10              10

CASH—End of year                                            $       12     $        10

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION—Cash paid during the year for
 interest                                                   $      108     $        13


See notes to financial statements.




                                                   -5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (“CLF”) was created by the
     National Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a mixed-
     ownership government corporation under the Government Corporation Control Act. CLF exists within
     the National Credit Union Administration (“NCUA”) and is managed by the National Credit Union
     Administration Board. CLF became operational on October 1, 1979.

     The purpose of CLF is to improve general financial stability by meeting the liquidity needs of credit
     unions. CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting—CLF maintains its accounting records on the accrual basis of accounting.

     Loans and Allowance for Loan Losses—Loans, when made to members, are on a short-term or long-
     term basis. For all loans, CLF may obtain a security interest in the assets of the borrower. In determining
     the allowance for loan losses, when applicable, CLF evaluates the collectibility of its loans to members
     through examination of the financial condition of the individual borrowing credit unions and the credit
     union industry in general.

     Funds on Deposit with U.S. Central Federal Credit Union—CLF invests in redeposits and share
     accounts at U.S. Central Federal Credit Union (see Notes 5 and 9). These are non-transferable, non-
     negotiable instruments that are acquired at face value and carried at cost.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

     Cash—The carrying amounts for cash approximate fair value.

     Investments—Fair values of financial instruments with maturities over one year are computed using the
     market rate of interest at year-end. For financial instruments with maturities of one year or less, the
     carrying amounts approximate fair value.

     Loans—For loans advanced to member credit unions, the carrying amounts approximate fair value.

     Member Deposits—Funds maintained with the CLF in excess of required capital amounts are recorded
     as member deposits. These deposits are due upon demand and the carrying amounts approximate the fair
     value.

     FFB Notes Payable—For notes issued to the Federal Financing Bank, when applicable, the carrying
     amounts approximate fair value.




                                                     -6-
     Other—Accrued interest receivable, accounts payable and other liabilities are recorded at book values,
     which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     CLF is subject to various Federal laws and regulations. CLF’s operating budget requires Congressional
     approval, and CLF may not make loans to members for the purpose of expanding credit union loan
     portfolios. CLF’s investments are restricted to obligations of the United States Government and its
     agencies, deposits in Federally insured financial institutions, and shares and deposits in credit unions.
     Borrowing is limited by statute to twelve times the subscribed capital stock and surplus. However, there
     is a Congressional limitation of $1.5 billion on funds that are borrowed and then loaned out to credit
     unions at any one point in time.

     At December 31, 2006 and 2005, CLF was in compliance with its borrowing authority. Borrowings
     would be from the Federal Financing Bank with interest generally payable upon maturity (see Notes 6
     and 12).

4.   LOANS TO MEMBERS

     There were no loans or loan commitments outstanding at December 31, 2006 and 2005. CLF can
     provide members with extended loan commitments.

5.   FUNDS ON DEPOSIT WITH U.S. CENTRAL FEDERAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):
                                                                                       December 31,
                                                                                    2006          2005

       U.S. Central Federal Credit Union Share Account                         $ 1,545,678       $ 1,468,390
       U.S. Central Federal Credit Union Share Certificates                          4,000             2,000

                                                                               $ 1,549,678       $ 1,470,390

     A Memorandum of Understanding (“MOU”), effective July 1, 2005, sets forth the understanding of CLF
     and the U.S. Central Federal Credit Union (“USC”) concerning the investments by CLF in USC Share
     Accounts and Certificates.

     As provided in the MOU, all investments by CLF in shares of USC will be in either the Share Account
     or Share Certificates. The Share Account is a three-month, fixed rate account that provides for automatic
     re-investment at maturity and daily availability of funds with no penalty for early withdrawal. The Share
     Account is only available to CLF. In the event of liquidation of the USC, shares in the account will be
     redeemable in full, prior to the redemption of any other shares of USC.

     The Share Certificates are fixed rate, with a maturity fixed upon issuance (three or five years under the
     current MOU). Redemption prior to maturity is permitted, in whole or in part, if the CLF requests early


                                                     -7-
     redemption and if the USC and the CLF agree on an “early redemption value”. The Share Certificates are
     neither negotiable nor assignable.

6.   BORROWING AUTHORITY

     CLF is authorized by statute to borrow, from any source, an amount not to exceed twelve times its
     subscribed capital stock and surplus.

     On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
     Federal Financing Bank on behalf of CLF. The first promissory note under that note purchase agreement
     originally provided for a commitment amount of $20.7 billion. Subsequently, the note purchase agreement
     expired on September 30, 2000, and was extended through amendments annually. The amount of each
     promissory note was reduced to $5 billion and expires yearly on the 31st of March. The current
     promissory note expires March 31, 2007. Congress, however, has restricted CLF’s borrowing authority to
     $1.5 billion for the fiscal years 2005, 2006 and 2007, for the principal amount of new direct loans to
     member credit unions. Borrowings would be from the Federal Financing Bank with interest generally
     payable upon maturity. During 2006, CLF borrowed amounts totaling $6,210,600 from the Federal
     Financing Bank under two separate loan agreements, which it, in turn, loaned to a member credit union.
     All amounts borrowed during 2006 were repaid by December 31, 2006.

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to CLF in the event that
     the Board certifies to the Secretary that CLF does not have sufficient funds to meet the liquidity needs of
     credit unions. This authority to lend is limited to such extent and in such amounts as are provided in
     advance by Congressional Appropriation Acts. On December 23, 1981, the President signed PL 97-101,
     which provided $100 million of permanent indefinite borrowing authority that may be provided by the
     Secretary of the Treasury to CLF to meet emergency liquidity needs of credit unions.

7.   CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to CLF by member credit unions.
     Regular members’ required subscription amounts equal one-half of one percent of their paid-in and
     unimpaired capital and surplus, one-half of which is required to be remitted to CLF. Agent members’
     required subscription amounts equal one-half of one percent of the paid-in and unimpaired capital and
     surplus of all of the credit unions served by the agent member, one-half of which is required to be remitted
     to CLF. In both cases, the remaining one-half of the subscription is required to be held in liquid assets by
     the member credit unions subject to call by the National Credit Union Administration Board. These
     unremitted subscriptions are not reflected in CLF’s financial statements. Subscriptions are adjusted
     annually to reflect changes in the member credit unions’ paid-in and unimpaired capital and surplus.
     Dividends are declared and paid on required capital stock.

     Member deposits represent amounts remitted by members over and above the amount required for
     membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on required
     capital stock.

     Dividends payable represents dividends declared in 2006 to be paid in 2007.

8.   U.S. CENTRAL FEDERAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, CLF accepted a membership request from U.S. Central Federal Credit Union
     (“USC”) on behalf of its corporate credit union members. At December 31, 2006 and 2005,
     $1,479,256,000 and $1,401,373,000, respectively, of the required portion of subscribed capital stock


                                                     -8-
     were purchased from CLF by USC on behalf of member credit unions of its corporate credit union
     members. The USC has 28 and 29 corporate credit union members as of December 31, 2006 and 2005,
     respectively.

     CLF reinvests all of its agent member share capital in USC at market rates of interest. At December 31,
     2006 and 2005, approximately $1,549,678,000 and $1,470,390,000, respectively, were invested in USC
     accounts at 5.46% and 3.92%, respective yields.

9.   CONCENTRATION OF CREDIT RISK

     At December 31, 2006 and 2005, CLF has a concentration of credit risk for its investments on deposit
     with USC of approximately $1,549,678,000 and $1,470,390,000, respectively (Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

     The National Credit Union Administration provides CLF with data processing and other miscellaneous
     services and supplies. In addition, the National Credit Union Administration pays CLF’s employees’
     salaries and benefits as well as CLF’s portion of monthly building operating costs. CLF reimburses the
     National Credit Union Administration on a monthly basis for these items. The total amounts charged by
     the National Credit Union Administration were approximately $253,000 and $220,000 for the years
     ended December 31, 2006 and 2005, respectively. As of December 31, 2006 and 2005, accounts payable
     and other liabilities include approximately $95,000 and $91,000, respectively due to the National Credit
     Union Administration Operating Fund for services provided.

11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of CLF’s financial instruments are as follows
     (in thousands):

                                                 December 31, 2006                  December 31, 2005
                                              Carrying          Fair             Carrying          Fair
                                              Amount           Value             Amount           Value

       Cash                               $         12      $         12     $         10     $         10
       Funds on deposit with U.S.
        Central Federal Credit Union          1,549,678         1,549,668        1,470,390        1,470,345
       Accrued interest receivable               21,386            21,386           14,557           14,557
       Accounts payable and other
        liabilities                                130               130              120              120
       Dividends payable                        21,267            21,267           14,475           14,475
       Member deposits                             622               622              509              509

                                                  ******




                                                      -9-
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA

                                                                                           Tel: 703-251-1000
                                                                                           Fax: 703-251-3400
                                                                                           www.us.deloitte.com

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Central Liquidity
Facility (“CLF”) as of and for the year ended December 31, 2006, and have issued our report thereon
dated February 12, 2007. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered CLF’s internal control over financial reporting as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CLF’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of CLF’s
internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
presented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether CLF financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts,
and grant agreements, noncompliance with which could have a direct and material effect on the

                                                                                  Member of
                                                                                  Deloitte Touche Tohmatsu
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.

We noted certain matters that we reported to management of CLF in a separate letter dated February 12,
2007.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Central Liquidity Facility and is not intended to be and should not be used by anyone other than these
specified parties.




February 12, 2007




                                                 - 11 -
.
    National Credit Union
    Administration Community
    Development Revolving
    Loan Fund
    Financial Statements as of and for the
    Years Ended December 31, 2006 and 2005,
    and Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS

                                                                       Page

INDEPENDENT AUDITORS’ REPORT                                            1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2006 AND 2005:

 Balance Sheets                                                         2

 Statements of Operations                                               3

 Statements of Changes in Fund Balance                                  4

 Statements of Cash Flows                                               5

 Notes to Financial Statements                                         6–10

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS           11-12
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA

                                                                                           Tel: 703-251-1000
                                                                                           Fax: 703-251-3400
INDEPENDENT AUDITORS’ REPORT                                                               www.us.deloitte.com


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of National Credit Union Administration Community
Development Revolving Loan Fund (“CDRLF”) as of December 31, 2006 and 2005, and the related
statements of operations, changes in fund balance, and cash flows for the years then ended. These
financial statements are the responsibility of the management of CDRLF. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CDRLF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
National Credit Union Administration Community Development Revolving Loan Fund as of
December 31, 2006 and 2005, and the results of its operations and the cash flows for the years then ended
in conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 12,
2007, on our consideration of CDRLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of our
audits.




February 12, 2007




                                                                                   Member of
                                                                                   Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2006 AND 2005


                                                     2006             2005

ASSETS

CASH AND CASH EQUIVALENTS                        $ 8,668,980    $ 11,959,875

LOANS—Net of allowance (Note 4)                     7,386,864        4,554,047

INTEREST RECEIVABLE                                   17,703           11,293

TOTAL                                            $ 16,073,547   $ 16,525,215


LIABILITIES AND FUND BALANCE

LIABILITIES—Accrued technical assistance         $ 1,091,418    $     837,265

       Total liabilities                           1,091,418          837,265

FUND BALANCE:
 Revolving fund capital (Note 3)                  13,435,642        14,337,778
 Accumulated earnings                              1,546,487         1,350,172

       Total fund balance                         14,982,129        15,687,950

TOTAL                                            $ 16,073,547   $ 16,525,215


See notes to financial statements.




                                           -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


                                                              2006             2005

SUPPORT AND REVENUES:
 Interest on cash equivalents                            $    451,184     $    274,095
 Interest on loans                                             57,271           52,700
 Appropriation revenue                                        892,636          793,600

       Total support and revenues                            1,401,091        1,120,395

EXPENSES:
 Technical assistance                                        1,224,956         886,865
(Reduction of) provision for allowance for loan losses         (20,180)         37,358

       Total expenses                                        1,204,776         924,223

EXCESS OF SUPPORT AND REVENUES
 OVER EXPENSES                                           $    196,315     $    196,172


See notes to financial statements.




                                                 -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


                                                             2006           2005

FUND BALANCE—Beginning of year                           $ 15,687,950   $ 14,343,378

 Change in unexpended appropriations:
  Operating appropriations received (Note 3)                     -         1,942,000
  Rescission of appropriations received (Note 3)              (9,500)
  Appropriation revenue recognized (Note 3)                 (892,636)      (793,600)

 Excess of support and revenues over expenses                196,315        196,172

FUND BALANCE—End of year                                 $ 14,982,129   $ 15,687,950


See notes to financial statements.




                                                   -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


                                                                   2006              2005

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of support and revenues over expenses                $     196,315     $     196,172
 Adjustments to reconcile the excess of support
  and revenues over expenses to net cash
  used in operating activities:
  Change in unexpended appropriations                              (892,636)         (793,600)
  Reduction of allowance for loan losses—net of recoveries          (20,180)          (12,913)
 Changes in assets and liabilities:
  (Increase) decrease in interest receivable                        (6,410)            5,764
  Increase in accrued technical assistance                         254,153           109,964

       Net cash used in operating activities                      (468,758)          (494,613)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                        1,331,863         2,145,022
 Loan disbursements                                              (4,144,500)       (1,669,000)

       Net cash (used in) provided by investing activities       (2,812,637)         476,022

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received—revolving fund capital                         -           1,942,000
 Recission of appropriations received                                (9,500)              -

       Net cash (used in) provided by financing activities           (9,500)        1,942,000

NET (DECREASE) INCREASE IN CASH AND CASH
 EQUIVALENTS                                                     (3,290,895)        1,923,409

CASH AND CASH EQUIVALENTS—Beginning of year                      11,959,875        10,036,466

CASH AND CASH EQUIVALENTS—End of year                        $ 8,668,980       $ 11,959,875


See notes to financial statements.




                                                   -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (“CDRLF”) was established by
     an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development in
     low-income communities. The National Credit Union Administration (“NCUA”) and the Community
     Services Association (“CSA”) jointly adopted Part 705 of NCUA Rules and Regulations, governing
     administration of the Fund, on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the Department of
     Health and Human Services (“HHS”). Because HHS never promulgated final regulations governing the
     administration of CDRLF, the Fund was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part 705
     of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
     participating credit unions in 1990.

     The purpose of CDRLF is to stimulate economic activities in the communities served by low-income
     credit unions which will result in increased income, ownership, and employment opportunities for low-
     wealth residents, and other economic growth. The policy of NCUA is to revolve the loans to qualifying
     credit unions as often as practical in order to gain maximum impact on as many participating credit
     unions as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting—CDRLF reports its financial statements on the accrual basis of accounting.

     Cash Equivalents—The Federal Credit Union Act permits CDRLF to make investments in United
     States Government Treasury securities. All investments in 2006 and 2005 were cash equivalents and are
     stated at cost which approximates fair value. Cash equivalents are highly liquid investments with
     original maturities of three months or less.

     Allowance for Loan Losses—CDRLF records a provision for estimated loan losses. Loans considered to
     be uncollectible are charged to the allowance for loan losses. Management continually evaluates the
     adequacy of the allowance for loan losses based upon prevailing circumstances and an assessment of
     collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-performing loans
     when management believes collectibility is doubtful. At December 31, 2006 and 2005, there were no
     nonaccrual loans.

     Salary and Operating Expenses—NCUA provides certain general and administrative support to the
     CDRLF, including office space, salaries, and certain supplies. The value of these contributed services is
     not charged to CDRLF.



                                                    -6-
     Revenue Recognition—Appropriation revenue is recognized as the related technical assistance expense
     is recognized. Total appropriation revenues will differ from total technical assistance expenses because
     not all technical assistance is funded by appropriations.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending and
     technical assistance, is limited by Congress to a total of the $18,660,515 appropriated for CDRLF, plus
     accumulated earnings. Federally chartered and state-chartered credit unions may participate in CDRLF’s
     Community Loan Fund. Loans may only be made to low-income credit unions as defined by NCUA.

     NCUA Rules and Regulations Section 705.7 permit the classification of the loan in the participating
     credit union’s accounting records as either a note payable or a nonmember deposit. As a nonmember
     deposit, an amount not to exceed $100,000 per credit union is insured by the National Credit Union
     Share Insurance Fund (“NCUSIF”). The covered amount of loans recorded as nonmember deposits by
     participating credit unions insured by the NCUSIF totaled approximately $4,553,000 and $3,034,000 at
     December 31, 2006 and 2005, respectively. Under the CDRLF Loan Program, loans recorded in the
     credit union’s accounting records as notes payable may be collateralized.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued after January 1, 2002,
     carry a fixed rate of 1%. Interest and principal are repaid on a semiannual basis beginning six months and
     one year, respectively, after the initial distribution of the loan. The maximum term of each loan is five
     years. Participating credit unions are required to match the value of the loan within one year of the date of
     approval of the loan.

     During the year ended December 31, 2005, appropriations for loans and technical assistance in the amount
     of $1,942,000 were received, of which $950,000 was for fiscal years 2006–2007. Of this amount,
     $1,743,600 was designated to be used as operating appropriations for technical assistance and $198,400
     was designated to be used as revolving fund capital.

     In January 2006, $9,500 of the fiscal 2006–2007 appropriation was rescinded, making a net appropriation
     of $940,500 for technical assistance for fiscal years 2006–2007.




                                                   -7-
For the appropriations received for technical assistance for fiscal 2006–2007, $940,500 expires on
September 30, 2007. Appropriations of $941,000 for technical assistance grants are proposed for fiscal
2007–2008.

                                                               Public Laws
                                                No. 108-199    No. 108-199    No. 109-115           Total

  Activities by each appropriation,
  from inception
   Operating appropriation received—2005        $ 793,600      $ 198,400      $ 950,000         $ 1,942,000
   Appropriation revenue recognized—2005          793,600            -              -               793,600
   Operating appropriation rescinded—2006             -              -           (9,500)             (9,500)
   Appropriation revenue recognized—2006              -              -          892,636             892,636

  Balance—December 31, 2006                     $     -        $ 198,400      $ 47,864          $ 246,264


                                                                              2006                 2005

  Unexpended appropriations:
   Balance—beginning of the year                                        $ 2,043,578         $      895,178
   Operational appropriations (rescinded) received                           (9,500)             1,942,000
   Appropriation revenue recognized                                        (892,636)              (793,600)

  Balance of unexpended appropriations—end of year                      $ 1,141,442         $ 2,043,578

  Revolving fund capital:
   Balance—beginning of the year                                        $ 14,337,778        $ 13,189,378
   Change in unexpended appropriations                                      (902,136)          1,148,400

  Balance of revolving fund capital—end of year                         $ 13,435,642        $ 14,337,778




                                             -8-
4.   LOANS

     Loans outstanding at December 31, 2006 and 2005, are scheduled to be repaid during the following
     subsequent years:

                                                                                    2006              2005

       2007                                                                  $ 1,828,997        $ 1,298,223
       2008                                                                    1,655,690          1,310,287
       2009                                                                    1,549,027            826,790
       2010                                                                    1,247,700            720,127
       2011                                                                    1,105,450            418,800

                                                                                7,386,864            4,574,227

       Less allowance for loan losses                                                  -               (20,180)

       Net loans outstanding                                                 $ 7,386,864        $ 4,554,047

     Changes in the allowance for loan losses are summarized below:
                                                                                      2006            2005

       Balance—beginning of year                                                $    20,180      $    33,093
        Write-offs                                                                                   (50,271)
        (Reduction of) provision for allowance for loan losses                       (20,180)         37,358

       Balance—end of year                                                      $          -     $    20,180

5.   CONCENTRATION OF CREDIT RISK

     At December 31, 2006 and 2005, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, CDRLF provides loans to credit unions that serve predominantly low-
     income communities.

6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in accordance
     with the requirements of Statement of Financial Accounting Standards No. 107, Disclosures about Fair
     Value of Financial Instruments. The methods and assumptions used in estimating the fair value
     disclosures for financial instruments are as follows:

     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate fair
     values.

     Interest Receivable and Accrued Technical Assistance—Such items are recorded at book values, which
     approximate the respective fair values.

     Loans—The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus two
     percent (6.76% and 6.37% at December 31, 2006 and 2005, respectively).




                                                    -9-
The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as follows:

                                              December 31, 2006                  December 31, 2005
                                          Carrying         Estimated         Carrying         Estimated
                                          Amount           Fair Value        Amount           Fair Value

  Assets:
   Cash and cash equivalents          $ 8,668,980       $ 8,668,980      $ 11,959,875      $ 11,959,875

   Interest receivable                $     17,703      $      17,703    $     11,293      $      11,293

   Loans                              $ 7,386,864       $ 6,358,776      $ 4,574,227       $ 4,394,307
   Allowance for loan losses                   -                 -           (20,180)          (20,180)

   Loans—net of allowance             $ 7,386,864       $ 6,358,776      $ 4,554,047       $ 4,374,127

  Liabilities—accrued technical
   assistance                         $ 1,091,418       $ 1,091,418      $    837,265      $     837,265

It is the intent of CDRLF to hold its loans to maturity. CDRLF anticipates realizing the carrying amount
in full. Fair value is less than the carrying amount because loans are made at less than market interest
rates.

                                            ******




                                             - 10 -
                                                                                            Deloitte & Touche LLP
                                                                                            Suite 800
                                                                                            1750 Tysons Boulevard
                                                                                            McLean, VA 22102-4219
                                                                                            USA

                                                                                            Tel: 703-251-1000
                                                                                            Fax: 703-251-3400
                                                                                            www.us.deloitte.com

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To the Inspector General of
National Credit Union Administration:
We have audited the financial statements of the National Credit Union Administration Community
Development Revolving Loan Fund (“CDRLF”) as of and for the year ended December 31, 2006, and have
issued our report thereon dated February 12, 2007. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States.
Internal Control Over Financial Reporting
In planning and performing our audit, we considered CDRLF’s internal control over financial reporting as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the CDRLF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of CDRLF’s
internal control over financial reporting.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements on
a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies, that
adversely affects the entity’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote likelihood that
a misstatement of the entity’s financial statements that is more than inconsequential will not be prevented or
detected by the entity’s internal control.
A material weakness is a significant deficiency, or combination of significant deficiencies, that results in more
than a remote likelihood that a material misstatement of the financial statements will not be presented or
detected by the entity’s internal control.
Our consideration of internal control over financial reporting was for the limited purpose described in the first
paragraph of this section and would not necessarily identify all deficiencies in internal control that might be
significant deficiencies or material weaknesses. We did not identify any deficiencies in internal control over
financial reporting that we consider to be material weaknesses, as defined above.
Compliance and Other Matters
As part of obtaining reasonable assurance about whether CDRLF’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts, and
grant agreements, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. The results of our tests disclosed
no instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards.
                                                                                   Member of
                                                                                   Deloitte Touche Tohmatsu
We noted certain matters that we reported to management of CDRLF in a separate letter dated February 12,
2007.
This report is intended solely for the information and use of the Inspector General, the Board of the National
Credit Union Administration, and the management of the National Credit Union Administration Community
Development Revolving Loan Fund and is not intended to be and should not be used by anyone other than
these specified parties.




February 12, 2007
